Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 1 of 12

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
MIDLAND-ODESSA DIVISION
UNITED STATES OF AMERICA,
Plaintiff,
V.
DARIO REYES-TORRES
Defendant.

§
§
§
§
§
§
§
§
§
§

Case Number MO:19-CR-270

DEFENDANT’S MOTION TO DISMISS THE INDICTMENT
DARIO REYES-TORRES, the defendant, files this Motion to Dismiss the
Indictment and in support would show:
I.
Mr. Reyes-Torres is charged by Indictment with violating 18 U.S.C. §
922(g)(5), “knowing he [the defendant] is an alien illegally and unlawfully in the
United States, knowingly possessed firearms, to wit: a Remington Model 788
Rifle, a Springfield Savage Model 67F Shotgun and a Remington Model 742
Rifle, and the firearms were in and affecting commerce.” Dkt. No. 7. This statute
violates the Second Amendment, both facially1 and as applied to Mr. ReyesTorres.
1

Mr. Reyes Torres acknowledges United States v. Portillo-Munoz, 643 F.3d 437 (5th Cir. 2011)
(Dennis, J. dissenting), cert. denied Portillo-Munoz v. United States, 2012 U.S. LEXIS 3243
(U.S., Apr. 23, 2012), holding that Section 922(g)(5) is not facially unconstitutional under the
Second Amendment. Mr. Reyes-Torres asserts that Judge Dennis’ dissent correctly analyzes and
states the law and he preserves these issues for further review.

20-50476.30

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 2 of 12

II.
Section 922(g)(5) makes it unlawful for any person who is illegally or
unlawfully in the United States to “possess . . . any firearm . . . which has been
shipped or transported in interstate or foreign commerce.” 18 U.S.C. § 922(g)(5).
III.
The Second Amendment provides: “A well regulated Militia, being
necessary to the security of a free State, the right of the people to keep and bear
Arms, shall not be infringed.” U.S. CONST. amend. II.
IV.
“The Constitution was written to be understood by the voters; its words and
phrases were used in their normal and ordinary as distinguished from their
technical meaning.” United States v. Sprague, 282 U. S. 716, 731 (1931); see also
Gibbons v. Ogden, 22 U. S. 1 (1824). “Normal meaning” may of course include
“an idiomatic meaning,” but it excludes language or meanings “that would not
have been known” to the America’s Founding Fathers. District of Columbia v.
Heller, 544 U. S. 570, 576-77 (2008).

At the time the Second Amendment was

ratified in December 1791, the term “alien being illegally or unlawfully in the
United States” was unknown to our Founders and such persons in 1791 were not
excluded from Second Amendment protection. Indeed, the new Government

2
20-50476.31

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 3 of 12

needed and encouraged persons to settle into the territories, without first seeking
permission to enter. See Naturalization Act of 1790 (Act March 26, 1790, c.3. 1
Stat. 103). As such, the Founders understood that the constitutional right to bear
arms would extend to every free person who resided in the United States,
including recent immigrants.2 In other words, the Fathers of our young Republic
would have afforded Second Amendment protection to persons like Mr. ReyesTorres, an immigrant of over 14 years, married and the father to 3 native-born
American children, no criminal history, an active participant in his community and
his children’s school activities, with residence on a ranch in rural Texas where
rifles and shotguns are used for self-defense and predator control associated with
his employment as a ranch-hand,3 “traditionally lawful purposes.” Heller, 544 U.
S. at 577.
V.
The Supreme Court identified general categories on firearms laws that
would survive Second Amendment scrutiny:
Although we do not undertake an exhaustive historical
analysis today of the full scope of the Second
Amendment, nothing in our opinion should be taken to
case doubt on the longstanding prohibitions on the
2

“Given the political dynamic of the day, the wording of the Second Amendment is exactly what
would have been expected. The Federalists had no qualms with recognizing the individual right
of [the people] to bear arms.” United States v. Emerson, 270 F.3d 203, 259 (5th Cir. 2001).
3
Sheep are raised on the ranch. Mr. Reyes-Torres duties include killing coyotes that prey on the
sheep.
3
20-50476.32

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 4 of 12

possession of firearms by felons and the mentally ill, or
laws forbidding the carrying of firearms in sensitive
places such as schools and government buildings, or
laws imposing conditions and qualifications on the
commercial sale of arms.
Id. at 626-27 (emphasis supplied). However, Congress’ passage of a total ban on
firearm possession by undocumented aliens, the Omnibus Crime Control and Safe
Streets Act of 1968, Pub. L. 90-351 § 1202(a)(5), 82 Stat. 197, 236 (1968) – now
codified at 18 U.S.C. § 922(g)(5) – is not “longstanding” and cannot fall within
Heller’s exception to the individual right to bear arms. 4 Similar to the Heller
respondent, Mr. Reyes-Torres argues that the Second Amendment protects his
right to possess a rifle and shotgun, unconnected with service in a militia, for selfdefense, “to use that arm for traditionally lawful purposes” including but not
limited to hunting and predator control while residing and working on a ranch in
rural West Texas. Heller, 544 U. S. at 577.

4

The prohibition for felon possession is generally presumed to be much older. “Colonial and
English societies of the eighteenth century, as well as their modern counterparts, have excluded
infants, idiots, lunatics, and felons [from possessing firearms].” Emerson, 270 F.3d at 227 n.21
(quoting Robert Dowlut, The Right to Arms: Does the Constitution or the Predilection of Judges
Reign?, 36 OKLA L. REV. 65, 96 (1983); but see C. Kevin Marshall, Why Can’t Martha Stewart
Have a Gun?, 32 HARV. J.L. & PUB. POL’Y 695, 709-10 (Spring 2009) (challenging Dowlut’s
conclusion).
4
20-50476.33

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 5 of 12

VI.
The Second Amendment codifies a “right of the people.” Id. at 579. The
unamended Constitution and the Bill of Rights use the same phrase “right of the
people” two other times, in the First Amendment’s Assembly-and-Petition Clause
and in the Fourth Amendment’s Search-and-Seizure Clause. Id. The Ninth
Amendment uses very similar terminology (“The enumeration in the Constitution,
of certain rights, shall not be construed to deny or disparage others retained by the
people”). Id. This Second Amendment right provided to “the people” includes Mr.
Reyes-Torres. See Emerson, 270 F.3d at 259 (recognizing the individual right to
keep and bear arms).
VII.
In Heller, Justice Scalia made clear that the term “the people” refers to all
member of the “community.” Id. at 579. Justice Scalia clarified:
The people seems to be a term of art employed in select
parts of the Constitution. . . . [Its uses] sugges[t] that ‘the
people’ protected by the Fourth Amendment, and by the
First and Second Amendments, and to whom rights and
powers are reserved in the Ninth and Tenth
Amendments, refers to a class of persons who are part of
a national community or who have otherwise developed
sufficient connection with this country to be considered
part of that community.
Id., citing to United States v. Verdugo-Urquidez, 494 U. S. 259, 265 (1990).

5
20-50476.34

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 6 of 12

VIII.
Mr. Reyes-Torres is “part of that community” and “has substantial
connections” in Upton County, Texas and is among “the people” for which the
Second Amendment protects one’s right to possess a rifle and shotgun for selfdefense, predator control and hunting. Id. at 588, 592 (to “bear arms” includes
“killing game” and “for personal defence”). “By the time of the founding, the
right to have arms had become fundamental” . . . “the natural right of resistance
and self-preservation.” Id. at 593-94. Mr. Reyes-Torres, age 33, has resided in
Upton County, Texas for over 14 years, is the father of 3 minor children – all born
in the United States, has no criminal history preventing him from lawful
possession of a rifle or shotgun, is an active participant in his community and his
children’s school activities, and resides on a ranch in rural Upton County, Texas
where he is employed as a ranch-hand and where use of a rifle for predator control
and defense of the ranch is part and parcel of his employment duties.
IX.
As applied to Mr. Reyes-Torres, Section 922(g)(5) is unconstitutional
under the Second Amendment. See Binderup v. Attorney General, 836 F.3d 336
(3rd Cir. 2016) (en banc) (holding 18 U.S.C. § 922(g)(1) violative of the Second
Amendment as applied to convicted felons whose state convictions for
misdemeanors met the federal definition of felonies but were not serious or violent
6
20-50476.35

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 7 of 12

crimes and there was no showing that banning the challengers’ possession of
firearms promoted the government’s interest in the responsible use of firearms),
cert. denied sub nom., Sessions v. Binderup, 137 S. Ct. 2323 (2017), and cert.
denied sub nom., Binderup v. Sessions, 137 S. Ct. 2323 (2017). Section 922(g)(5)
as applied to Mr. Reyes-Torres, akin to Binderup, violates his Second Amendment
right to possess hunting rifles and a shotgun in rural West Texas for the purposes
of predator control necessary for his employment, defense of his family, lawful
hunting and for other traditionally lawful purposes. Under Fifth Circuit precedent,
an alien such as Mr. Reyes-Torres with many community ties and without any
prior criminal history, is entitled to Second Amendment protection if he is
voluntarily in the United States, which Mr. Reyes-Torres is. “Once aliens become
subject to liability under United States law, they also have the right to benefit from
its protection.” United States v. Cortes, 588 F.2d 106, 110 (5th Cir. 1979).

Mere

possession of a hunting rifle or shotgun by Mr. Reyes-Torres to carry out his
duties of employment5 violates the statute, and yet the Second Amendment
explicitly protects “the right of the people to keep and bear arms.” Mr. ReyesTorres “clearly satisfies the criteria given by the Supreme Court and this Court
5

While working, Mr. Reyes-Torres driving a ranch-owned pickup truck when stopped by a
Department of Safety trooper for an expired registration sticker. Mr. Reyes-Torres volunteered
to the trooper that there was a hunting rifle behind the front seat of the pickup for predator
control and that he had a rifle and shotgun at his residence on the ranch for self-defense, hunting
and predator control. The seizure of these firearms initiated this case. Dkt. No. 1.
7
20-50476.36

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 8 of 12

[the Fifth Circuit] for determining whether he is part of “the people”: he has come
to the United States voluntarily and accepted societal obligations.” PortilloMunoz, 643 F.3d. at 443 (Dennis, J. dissenting). While the Supreme Court nor the
Fifth Circuit have identified the level of scrutiny applicable to Section 922(g)(5),
something more than a rational basis is required: “Obviously, the [rational basis]
test could not be used to evaluate the extent to which a legislature may regulate a
specific, enumerated right, be it freedom of speech, the guarantee against double
jeopardy, the right to counsel, or the right to keep and bear arms.” Heller, 544 U.
S. at 628 n.27. Because possession of a firearm for self-defense is an enumerated
right under the Second Amendment, and because § 922(g)(5) is directed
specifically at the “core” conduct protected by the Second Amendment, strict
scrutiny may be applicable given Mr. Reyes-Torres’ ethnicity.

See Adarand

Constructors v. Pena, 515 U. S. 200, 222 (1995) (applying strict scrutiny standard
“to any official action that treats a person differently because of his racial or ethnic
criteria”). Even aliens whose presence in this country is unlawful have long been
recognized as “persons” guaranteed due process of law by the Fifth and Fourteenth
Amendments. Plyer v. Doe, 457 U. S. 202, 210 (1982), citing Shaughnessy v.
Mezei, 345 U. S. 206, 212 (1953); Wong Wing v. United States, 163 U. S. 228, 238
(1896).

8
20-50476.37

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 9 of 12

The Fifth Circuit has suggested that strict scrutiny may accompany a § 922
challenge under the Second Amendment.
Although, as we held, the Second Amendment does
protect individual rights, that does not mean that those
rights may never be made subject to any limited,
narrowly tailored specific exceptions or restrictions for
particular cases that are reasonable and not inconsistent
with the right . . . to individually keep and bear their
private arms as historically understood in this country.
Emerson, 270 F.3d at 261 (emphasis supplied). To survive strict scrutiny, Section
922(g)(5) “must serve a compelling government interest and must be tailored to
further that interest.” Adarand Constructors 515 U. S. at 235 (emphasis supplied).
A total Second Amendment ban for all undocumented aliens is not “tailored” to
prevent or discourage dangerousness or unlawful use of firearms, as applied to Mr.
Reyes-Torres. While one may argue that Section 922(g)(5) is race/ethnic neutral,
persons prosecuted under (g)(5) since Heller overwhelmingly appear to be of
Hispanic, Mexican, Cuban or Central American surname, ethnicity or Latin
America origin, like Mr. Reyes-Torres, a citizen of Mexico. See Portillo-Munoz,
supra; United States v. Torres, 911 F.3d 1253 (9th Cir. 2016); United States v.
Carpio-Leon, 701 F.3d 974 (4th Cir. 2012); United States v. Huitron-Guizar, 678
F.3d 1164 (10th Cir. 2012); United States v. Guerrero-Leco, No. 3:08cr118, 2008
U.S. Dist. LEXIS 103448 (W.D.N.C. 2008); United States v. Martinez-Guillen,
No. 2:10cr192-MEF, 2011 U.S. Dist. LEXIS 12691 (M.D. Ala. 2011); United
9
20-50476.38

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 10 of 12

States v. Yanez-Vasquez, No. 09-40056-01-SAC, 2010 U.S. Dist. LEXIS 8166 (D.
Kan. 2010); United States v. Boffil-Rivera, No. 08-20437-CR, 2008 U.S. Dist.
LEXIS 84633 (S.D. Fla. 2008); United States v. Ramirez-Hernandez, No. 5:08CR-112-KKC, 2012 U.S. Dist. LEXIS 73728 (E.D. Ky. 2012); United States v.
Mirza, 454 Fed. Appx. 249, 2011 WL 5042211 (5th Cir. 2011); United States v.
Solis-Gonzalez, No. 3:08-CR-145, 2008 U.S. Dist. LEXIS 110133, 2008 WL
4539663 (W.D.N.C. Sept. 26, 2008); United States v. Flores, No. 10-178, 2010
U.S. Dist. LEXIS 120847 (D. Minn. 2010); United States v. Ramirez-Hernandez,
No. 5:08-CR-112-KKC, 2012 U.S. Dist. LEXIS 73728 (E.D. Ky. 2012); United
States v. Luviano-Vega, No. 5:10-CR-184, 2010 U.S. Dist. LEXIS 98432, 2010
WL 3732137 (E.D.N.C. Sept. 20, 2010); United States v. Lara-Mondragon, No.
2:11-CR-010-RWS-SSC, 2011 U.S. Dist. LEXIS 160539 (N.D. Ga. 2011); United
States v. Flores-Higuera, No. 1:11-CR-182-TCB-CCH, 2011 U.S. Dist. LEXIS
84934 (N.D. Ga. 2011); and United States v. Adame-Najera, 2010 U.S. Dist.
LEXIS 142716, 2010 WL 6529643 (N.D. Ga. Nov. 24, 2010), approved, 2011
U.S. Dist. LEXIS 42261, 2011 WL 1497889.

While the list above is not

exhaustive of all § 922(g)(5) cases post-Heller, the names of the defendants speak
for themselves. As applied to Mr. Reyes-Torres, § 922(g)(5) is unconstitutional
under the Second Amendment.

10
20-50476.39

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 11 of 12

X.
In sum, Mr. Reyes-Torres is protected by the Second Amendment. The
reference to “the people” in the Amendment’s text exists to demonstrate the
importance of that right to our nation’s Founders, and the right’s individual
character. Mr. Reyes-Torres voluntarily came to Texas from Mexico over 14years ago; he is raising 3 minor children, all citizens of the United States, along
with his wife in Upton County, Texas; he is active in his children’s school
activities in the Rankin Independent School District; he is gainfully employed as a
ranch-hand and pays his federal income taxes; and he resides with his wife and
children on their home on his employer’s ranch in Upton County, Texas. Mr.
Reyes-Torres has voluntarily established substantial connections to make him a
member of the national community and may benefit from this nation’s laws,
including the Second Amendment.
PRAYER FOR RELIEF
FOR THESE REASONS, Dario Reyes-Torres, the defendant, respectfully
requests that this Court dismiss the Indictment with prejudice. The defendant prays
for general relief, at law and in equity.
Respectfully submitted,

Stephen W. Spurgin
STEPHEN W. SPURGIN
11
20-50476.40

Case 7:19-cr-00270-DC Document 15 Filed 01/07/20 Page 12 of 12

Texas Bar No. 18974350
Drawer 1471
Marfa, Texas 79843
T (432) 729-3731
F (432) 729-3730
E stephen@spurginlaw.com
El Paso Office:
310 North Mesa, Suite 300
Cortez on the Plaza
El Paso, Texas 79901
T (915) 779-2800
F (915) 779-2801
CERTIFICATE OF CONFERENCE
The undersigned attorney has communicated with AUSA Shane Chriesman
regarding this motion and has been advised that the Government is opposed.
CERTIFICATE OF SERVICE
I hereby certify that on the 7th day of January 2020, I electronically filed the
foregoing Motion to Dismiss the Indictment with the Clerk of the Court using the
CM/ECF system which will send notification of such filing to the following:
Shane Chriesman
Assistant United States Attorney
Midland, Texas

Stephen W. Spurgin
STEPHEN W. SPURGIN

12
20-50476.41

